NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL



                      NCUA’S USE OF THE
            DELPHI FINANCIAL MANAGEMENT SYSTEM
                           VERSUS
              THE SAP R/3 ENTERPRISE RESOURCE
                      PLANNING SYSTEM

                            Report # OIG-12-12

                             October 11, 2012




                            William A. DeSarno
                            Inspector General


 Released by:                           Auditor-in-Charge:




 James Hagen                            W. Marvin Stith, CISA
 Deputy Inspector General               Senior IT Auditor
                              Table of Contents


Section                                           Page



          EXECUTIVE SUMMARY                       1

          BACKGROUND                              2

          OBJECTIVE, SCOPE AND METHODOLOGY        3

          RESULTS IN DETAIL                       4

          APPENDIX

          A. NCUA Management Response             7




                                        i
NCUA’s Use of the Delphi Financial Management System versus the SAP R/3 Enterprise Resource Planning System
OIG-12-12


Executive Summary

We conducted an audit to determine why NCUA has not fully implemented the Delphi
Financial Management System (Delphi) and continues to use the SAP R/3 Enterprise
Resource Planning (SAP).

To accomplish this audit, we conducted fieldwork at NCUA’s headquarters in
Alexandria, Virginia. We reviewed Office of Management and Budget Memoranda
pertaining to Financial Management Lines of Business, Financial Management Systems
(FMS), and FMS Shared Service Providers. We interviewed staff from the NCUA Office
of the Chief Financial Officer and also reviewed NCUA and other documentation
pertaining to: (1) SAP; (2) the Department of Transportation Enterprise Service Center
and its Delphi FMS; and (3) NCUA’s efforts in transitioning to Delphi.

We determined that NCUA: (1) has fully implemented Delphi, but (2) continues to use
SAP along with Delphi because SAP fulfills other financial management functions and
Human Resource functions.

Prior to implementing Delphi to replace SAP, NCUA officials knew that they would have
to obtain travel functionality and Budget Formulation functionality provided via SAP
through systems independent of Delphi. 1 We understand that once NCUA implements
the replacement travel and Budget Formulation systems, the agency will continue to use
SAP to interface with the Comprehensive Human Resources Integrated System
(CHRIS) for human resource-related functions. Prior to implementing Delphi, NCUA
indicated it was spending $500,000 annually for SAP. NCUA recently indicated that it
currently only spends approximately $53,000 annually for SAP maintenance.

Based on NCUA’s current and planned use of Delphi and SAP; and the significantly
reduced resources necessary to concurrently maintain SAP, we did not make any
recommendations. NCUA management responded that: (1) when Delphi went live in
January 2010, it gave users a more functional management system than any other
system NCUA has used; and (2) there will be additional enhancements to the agency’s
management systems that will eventually allow NCUA to eliminate SAP.

We appreciate the courtesies and cooperation NCUA management and staff provided to
us during this review.




1
    NCUA indicated that it plans to implement a travel system in 2013, followed by a Budget Formulation system.

                                                           1
NCUA’s Use of the Delphi Financial Management System versus the SAP R/3 Enterprise Resource Planning System
OIG-12-12


Background

In 2006, the Office of Management and Budget (OMB) directed all federal agencies that
needed to upgrade or modernize their Financial Management Systems (FMS) to either:

    •   Transfer their core financial functions to a Shared Service Provider (SSP);

    •   Seek designation as an SSP; or

    •   Prove that they operate their in-house systems with less risk and at a lower cost
        than an SSP.

The four OMB-designated SSPs were the:

    •   Bureau of Public Debt’s Administrative Resource Center;

    •   Department of Interior’s National Business Center;

    •   Department of Transportation’s Enterprise Service Center; and

    •   General Service Administration’s External Services Division

OMB guidance also required all agencies to eventually adopt government-wide
business and accounting practices. In 2008, OMB reiterated this requirement and
indicated that the Financial Systems Integration Office (FSIO) began working with
agencies to develop business standards (i.e., common government-wide accounting
code, business processes, data, and business rules). Once the FSIO completed the
business standards, each agency was to migrate to an SSP to establish and maintain a
financial management system that complied with existing requirements and to follow the
newly defined business standards.

In January 2009, OMB updated Circular A-127, 2 which - effective October 1, 2009 -
required agencies:

    •   To adopt standard government business processes established by the FSIO as
        they upgrade to the next major release of their current core financial system or
        migrate to a different core financial system;

    •   When upgrading to the next major release of its current core financial system or
        modernizing to a different core financial system, use an external provider which


2
  OMB Circular A-127 (Financial Management Systems, revised January 1, 2009) prescribes policies and standards
for executive departments and agencies to follow when managing their financial management systems. The policies
apply to the financial management systems of all agencies in the executive branch of the government, including any
executive department, military department, independent agency, government corporation, government controlled
corporation, or other establishment.

                                                        2
NCUA’s Use of the Delphi Financial Management System versus the SAP R/3 Enterprise Resource Planning System
OIG-12-12


        is either: (1) a Federal shared service provider that has been designated by
        OMB or (2) a commercial vendor 3;

    •   To record financial events at the transaction level using the U.S. Government
        Standard General Ledger (SGL).

Objective, Scope and Methodology

The objective of this audit was to determine why NCUA has not fully implemented the
Delphi Financial Management System (Delphi) and continues to use the SAP R/3
Enterprise Resource Planning (SAP).

To accomplish this audit, we conducted fieldwork at NCUA’s headquarters in
Alexandria, Virginia. We reviewed Office of Management and Budget Memoranda
pertaining to Financial Management Lines of Business, Financial Management Systems
(FMS), and FMS Shared Service Providers. We interviewed staff from the NCUA Office
of the Chief Financial Officer and also reviewed NCUA and other documentation
pertaining to: (1) SAP; (2) the Department of Transportation Enterprise Service Center
and its Delphi FMS; and (3) NCUA’s efforts in transitioning to Delphi.

We conducted this review starting in January 2012 and from July 2012 through October
2012 in accordance with generally accepted government auditing standards and
included such tests of internal controls as we considered necessary under the
circumstances. 4 Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objective. We did not use any computer-processed data during the course of this audit.




3
 The implemented system must also be maintained by the external provider.
4
 The OIG diverted the Delphi audit staff in February 2012 to complete an audit of NCUA’s controls related to the
Financial Stability Oversight Council as a member agency. This audit was sponsored by the Council of Inspector’s
General on Financial Oversight. The OIG completed that audit in June 2012.

                                                        3
NCUA’s Use of the Delphi Financial Management System versus the SAP R/3 Enterprise Resource Planning System
OIG-12-12


Results in Detail

We determined that NCUA: (1) has fully implemented Delphi, but (2) continues to use
SAP along with Delphi because SAP fulfills other financial management functions and
Human Resource functions.

The following table illustrates the prior and continuing functionality included in SAP -
NCUA’s former Financial Management System (FMS), and in its current FMS (Delphi):

                                           SAP                  Current NCUA Environment
             Functionality             (Prior to Delphi
                                      Implementation)            SAP                   Delphi
                 Accounts
                  Payable                                                                 
                 Accounts
                  Receivable                                                              
                 Budget
                  Execution                                                               
                 Budget
                  Formulation                                     
                 Call Report
                  Interface                                                               
                 Central Liquidity
                  Fund                                                                    
                  Enhancements
                 Fixed Assets                                                            
                 General Ledger                                                          
                 Human
                  Resources /
                  CHRIS 5                                         
                  Interface
                 Loans                       
                 Payroll Interface                                                       
                 Purchasing                                                              
                 Reporting                                                                
                 Share
                  Insurance Fund                                                          
                  Enhancements
                 Travel Interface
                  (for audit                                      
                  purposes)


        Table: Prior and continuing SAP functionality and current Delphi functionality.




5
  NCUA has a minimal amount of human resources data in the financial system, which is updated via an interface
from GSA’s Comprehensive Human Resources Integrated System (CHRIS). CHRIS is the automated tool used by
GSA Human Resource (HR) professionals and its client agencies to document employment history. The CHRIS
e-Tool enables employees to access their personnel files online.

                                                          4
NCUA’s Use of the Delphi Financial Management System versus the SAP R/3 Enterprise Resource Planning System
OIG-12-12


NCUA indicated SAP was implemented in 1997 and was at the end of its’ useful life. 6
NCUA also indicated that - as of December 2009 - SAP would no longer be covered
under the vendor’s maintenance contract. 7

In July 2006, NCUA chose to implement a new FMS to:

    •   Convert to a Standard General Ledger (SGL)-compliant chart of accounts8;

    •   Automate Federal reporting 9;

    •   Migrate SAP custom applications to the new environment;and

    •   Make improvements on existing SAP functionality.

NCUA indicated the benefits of upgrading its FMS included:

    •   Budgetary accounting;

    •   Automated Treasury Reporting;

    •   Digitized Invoices (improving Accounts Payable);

    •   More focus on analysis and less on data entry;

    •   Web-based system Interface with the Payroll System; and

    •   Continuity of Operations Solution

In September 2008, NCUA’s selection panel for the new FMS recommended that NCUA
select the Department of Transportation Enterprise Service Center to implement and
host its system (Delphi) for NCUA. In January 2010, NCUA implemented Delphi to
replace SAP in managing its core financial processes. The Table above lists the
functionality currently included in Delphi and continuing functionality provided by SAP.

Prior to selecting the new FMS, NCUA indicated that Delphi would not include certain
functionality, including: travel voucher auditing; travel bonus tracking; robust travel
reporting; and Budget Formulation. NCUA knew that it would have to obtain the travel
functionality and Budget Formulation functionality through systems independent of its
new FMS. As indicated in the Table above, SAP currently fulfills these functions for
NCUA, as well as interfacing with the Comprehensive Human Resources Integrated
6
  NCUA indicated SAP was a commercial-based accounted system using Generally Accepted Accounting Principles.
7
  Prior to implementing Delphi, NCUA indicated it was spending $500,000 annually for SAP. Recently, NCUA
indicated that it: (1) currently pays approximately $53,000 annually for SAP maintenance; and (2) paid $1.17 million
for Delphi in 2011.
8
  SAP did not provide SGL at the transaction level. It only provided accounting under Generally Accepted Accounting
Principles.
9
  SAP did not meet Federal financial reporting requirements.

                                                         5
NCUA’s Use of the Delphi Financial Management System versus the SAP R/3 Enterprise Resource Planning System
OIG-12-12


System (CHRIS). NCUA indicated that it plans to implement a travel system in 2013,
followed by a Budget Formulation system.

As we indicated previously, NCUA has fully implemented the Delphi FMS. We
understand that once NCUA implements replacement travel and Budget Formulation
systems, the agency will continue to use SAP to interface with the Comprehensive
Human Resources Integrated System (CHRIS) for human resource-related functions.

Management Response:

NCUA management indicated that: (1) when Delphi went live in January 2010, it gave
users a more functional management system than any other system NCUA has used;
and (2) there will be additional enhancements to the agency’s management systems
that will eventually allow NCUA to eliminate SAP.




                                                     6
NCUA’s Use of the Delphi Financial Management System versus the SAP R/3 Enterprise Resource Planning System
OIG-12-12


Appendix A - NCUA Management Comments




                                                     7
